Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    PRESCRIBERS WITH
  QUESTIONABLE PATTERNS
   IN MEDICARE PART D




                    Daniel R. Levinson
                     Inspector General

                       June 2013
                     OEI-02-09-00603
PRESCRIBERS WITH QUESTIONABLE PATTERNS IN MEDICARE PART D
OEI-02-09-00603


WHY WE DID THIS STUDY

Under the Medicare Part D program, the Centers for Medicare & Medicaid Services
(CMS) contracts with private insurance companies, known as sponsors, to provide
prescription drug coverage to beneficiaries who choose to enroll. In recent years,
prescription drug abuse has emerged as a serious and growing problem. The Centers for
Disease Control and Prevention has characterized prescription drug abuse as an epidemic.
With the rise in prescription drug abuse, concerns about Medicare fraud, particularly
prescriber fraud, have increased.

HOW WE DID THIS STUDY

We based this study on an analysis of Prescription Drug Event records. Sponsors submit
these records to CMS for each drug dispensed to beneficiaries enrolled in their plans.
Each record contains information about the pharmacy, prescriber, beneficiary, and drug.
We analyzed all of the records for drugs billed in 2009. We developed five measures to
describe Part D prescribing patterns and to identify general-care physicians with
questionable patterns.

WHAT WE FOUND

Over 1 million individual prescribers ordered drugs paid by Part D in 2009. Prescribing
patterns varied widely by specialty. Over 700 general-care physicians had questionable
prescribing patterns. Each of these physicians prescribed extremely high amounts for at
least one of the five measures we developed. For example, many of these physicians
prescribed extremely high numbers of prescriptions per beneficiary, which may indicate
that these prescriptions are medically unnecessary. Moreover, more than half of the
736 general-care physicians with questionable prescribing patterns ordered extremely
high percentages of Schedule II or III drugs, which have potential for addiction and
abuse. Although some of this prescribing may be appropriate, such questionable patterns
warrant further scrutiny.

WHAT WE RECOMMEND

These findings show the need for increased oversight of Part D. We recommend that
CMS: (1) instruct the Medicare Drug Integrity Contractor to expand its analysis of
prescribers, (2) provide sponsors with additional guidance on monitoring prescribing
patterns, (3) provide education and training for prescribers, and (4) follow up on
prescribers with questionable prescribing patterns. CMS concurred with all four
recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings...................................................................................................... 11
           Over 1 million prescribers ordered drugs paid for by Part D
           in 2009 ........................................................................................... 11
           Prescribing patterns varied widely by specialty.............................12
           Over 700 general-care physicians had questionable prescribing
           patterns ...........................................................................................15
Conclusion and Recommendations ............................................................19
           Agency Comments and Office of Inspector General Response... ..21
Appendixes ................................................................................................22
           A: Specialties of Part D Prescribers ..............................................22
           B: Part D Prescribing Patterns by Specialty .................................23
           C: Agency Comments ...................................................................24
Acknowledgments......................................................................................28
                   OBJECTIVES
                   1. To describe Medicare Part D prescribing patterns.
                   2. To determine how Part D prescribing patterns differ by prescribers’
                      specialties.
                   3. To determine the extent to which general-care physicians had
                      questionable Part D prescribing patterns in 2009.

                   BACKGROUND
                   The Medicare Part D program provides an optional prescription drug benefit
                   to Medicare beneficiaries. 1 The Centers for Medicare & Medicaid Services
                   (CMS) contracts with private insurance companies, known as sponsors, to
                   provide drug coverage to beneficiaries who choose to enroll. In 2011,
                   approximately 36 million beneficiaries were enrolled. 2
                   Prescription drug abuse is a serious and growing problem. The Centers
                   for Disease Control and Prevention (CDC) has characterized prescription
                   drug abuse as an epidemic. In 2010, approximately 7 million people in the
                   United States were misusing prescription drugs. 3 Moreover, overdoses of
                   prescription painkillers—called opioids—are among the leading causes of
                   accidental death in the United States. 4
                   With the rise in prescription drug abuse, concerns about Medicare fraud,
                   particularly prescriber fraud, have increased. A number of recent
                   convictions have involved prescriber fraud. In one case, the owner of a
                   pain clinic and a nurse practitioner prescribed large quantities of the
                   painkiller oxycodone to patients without medical need, four of whom
                   died. 5 In a similar case, a physician knowingly allowed nonmedical
                   personnel to prescribe commonly abused painkillers, such as oxycodone,

                   1
                     The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                   P.L. 108-173.
                   2
                     The Boards of Trustees, Federal Hospital Insurance and Federal Supplementary
                   Medical Insurance Trust Funds, 2012 Annual Report of the Boards of Trustees of the
                   Federal Hospital Insurance and Federal Supplementary Medicare Insurance Trust
                   Funds, p. 10. Accessed at http://www.cms.gov/Research-Statistics-Data-and-
                   Systems/Statistics-Trends-and-Reports/ReportsTrustFunds/Downloads/TR2012.pdf on
                   July 6, 2012.
                   3
                     National Institute on Drug Abuse, Topics in Brief: Prescription Drug Abuse,
                   December 2011. Accessed at http://www.drugabuse.gov/publications/topics-in-
                   brief/prescription-drug-abuse on September 18, 2012.
                   4
                     CDC, Unintentional Drug Poisonings in the United States, July 2010.
                   5
                     Federal Bureau of Investigation (FBI), Owner of Chantilly Pain Clinic Convicted of
                   Drug Trafficking, Fraud Charges, August 3, 2012. Accessed at
                   http://www.fbi.gov/washingtondc/press-releases/2012/owner-of-chantilly-pain-clinic-
                   convicted-of-drug-trafficking-fraud-charges on September 11, 2012.

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                               1
                   morphine, and hydrocodone, to Medicare beneficiaries by using blank,
                   presigned prescription forms. 6 In a third case, a physician wrote medically
                   unnecessary pain prescriptions for individuals who illegally distributed
                   them. 7
                   Despite these concerns, little information has been available about Part D
                   prescribing patterns. Data about typical prescribing patterns and
                   prescribers with questionable patterns are important first steps in detecting
                   fraud, waste, and abuse.
                   This report is part of a larger body of work examining Part D billing. 8
                   Another report identified pharmacies with questionable billing in 2009. 9
                   A third report identified inappropriate Part D payments for Schedule II
                   drugs billed as refills. 10 A fourth report determines whether Medicare
                   Part D paid for drugs ordered by individuals who do not have the authority
                   to prescribe. 11 In addition, a recent analysis of Part D claims by
                   ProPublica found that some prescribers ordered large quantities of drugs
                   that are potentially harmful, disorienting, or addictive. 12
                   Prescription Drugs
                   Medicare Part D covers prescription drugs that meet certain requirements
                   and are used for medically accepted indications. 13 CMS considers a drug
                   to be “prescription” if the Food and Drug Administration has determined it
                   must be labeled “Rx only,” which means it cannot be dispensed without a
                   prescription from a practitioner who is licensed to prescribe such drugs. 14

                   6
                     FBI, Palmetto Physician Pleads Guilty To Illegal Prescription Drug and Medicare
                   Fraud Conspiracies, March 18, 2010. Accessed at http://www.fbi.gov/tampa/press-
                   releases/2010/ta031810.htm on July 2, 2012.
                   7
                     U.S. Department of Justice, Operation Oxyclean: Independence Physician Pleads
                   Guilty To $1 Million Drug-Trafficking Conspiracy. Accessed at
                   http://www.justice.gov/usao/mow/news2011/baker.ple.html on July 6, 2011.
                   8
                     All four reports are part of the Health Care Fraud Prevention and Enforcement Action Team
                   Initiative (HEAT), which focuses on detecting health care fraud through innovative data
                   analysis and enhanced cooperation among the Department of Justice, Office of Inspector
                   General (OIG), and CMS.
                   9
                     OIG, Retail Pharmacies With Questionable Part D Billing, OEI-02-09-00600, May
                   2012.
                   10
                      OIG, Inappropriate Medicare Part D Payments for Schedule II Drugs Billed As Refills,
                   OEI-02-09-00605, September 2012.
                   11
                      OIG, Medicare Part: Drugs Ordered by Individuals Without Prescribing Authority,
                   OEI-02-09-00608, June 2013.
                   12
                      Tracy Weber, Charles Ornstein, and Jennifer LaFleur, Medicare Drug Program Fails to
                   Monitor Prescribers, Putting Seniors and Disabled at Risk, ProPublica, May 11, 2013.
                   Accessed at http://www.propublica.org/article/part-d-prescriber-checkup-mainbar on
                   May 15, 2013.
                   13
                      42 U.S.C. § 1860D-2(e)(1).
                   14
                      CMS, Medicare Prescription Drug Benefit Manual, Chapter 6, Part D Drugs and
                   Drug Formulary Requirements, § 10, February 2010. Also see 21 U.S.C. § 353(b)(1).

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                 2
                   The types of practitioners that are licensed to prescribe drugs are
                   determined by State law.
                   The Drug Enforcement Administration (DEA) regulates certain drugs that
                   have potential for abuse and dependence, called controlled substances.
                   These drugs are divided into five schedules. Schedule II drugs have the
                   highest potential for abuse of any prescription drugs legally available in
                   the United States. 15 They include stimulants and narcotics commonly used
                   to relieve pain, such as oxycodone and morphine. Schedule III drugs,
                   such as hydrocodone with acetaminophen, also have potential for abuse.
                   DEA requires all practitioners who handle controlled substances to register
                   with the agency. 16
                   Prescriber Fraud and Abuse
                   A number of fraud schemes in Part D involve prescribers. 17 Notably,
                   prescribers sometimes operate “pill mills” or accept kickbacks. To operate
                   a pill mill, a prescriber writes large quantities of prescriptions, usually for
                   controlled substances that are not medically necessary and are often for
                   people who are not their patients. A kickback is paid to a prescriber to
                   write an unnecessary prescription that is then billed to Medicare. In other
                   schemes, prescribers’ prescription pads or provider identification numbers
                   are stolen or sold by prescribers; these items then are used to write illegal
                   prescriptions or to submit claims to Medicare.
                   Detecting and Deterring Part D Fraud and Abuse
                   CMS relies on sponsors to help safeguard Part D from fraud and abuse.
                   CMS requires sponsors to have compliance plans that contain measures to
                   detect, prevent, and correct fraud, waste, and abuse. 18 CMS recommends
                   that sponsors use data analysis as a part of these plans. 19 Specifically, it
                   recommends that sponsors develop indicators and establish baseline data
                   so that they can recognize abnormalities and changes in prescribing
                   patterns.



                   15
                      Schedule I drugs currently have no accepted medical use in the United States. They
                   include drugs such as heroin.
                   16
                      DEA registration grants prescribers Federal authority to handle certain schedules of
                   controlled substances. See 21 CFR § 1301.11.
                   17
                      CMS, Prescription Drug Benefit Manual, Chapter 9, Part D Program to Control
                   Fraud, Waste and Abuse: Use of Data Analysis for Fraud, Waste and Abuse Prevention
                   and Detection, § 70.1.4, April 2006. Accessed at
                   http://www.cms.gov/PrescriptionDrugCovContra/Downloads/PDBManual_Chapter9_FW
                   A.pdf on September 12, 2012.
                   18
                      42 CFR § 423.504(b)(4)(vi).
                   19
                      CMS, Prescription Drug Benefit Manual, Chapter 9, Compliance Program Guidelines,
                   § 50.6.9, July 2012. Accessed at http://www.cms.gov/Medicare/Prescription-Drug-
                   Coverage/PrescriptionDrugCovContra/Downloads/Chapter9.pdf on September 12, 2012.

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                             3
                   Sponsors are also required to have a Drug Utilization Review program to
                   assist in preventing overutilization of prescribed medications. 20 CMS
                   recently issued guidance recommending that sponsors use data analysis as
                   part of their Drug Utilization Review programs to identify beneficiaries
                   who may be overutilizing opioids. Opioids include Schedule II controlled
                   substances, such as oxycodone, morphine, and fentanyl. CMS also
                   recommended that sponsors communicate with prescribers to ascertain the
                   medical necessity of these drugs.
                   Additionally, CMS contracts with a Medicare Drug Integrity Contractor
                   (MEDIC) to detect and prevent fraud, waste, and abuse. Its
                   responsibilities include identifying and investigating potential Parts C
                   and D fraud and abuse, referring cases to OIG, and fulfilling requests for
                   information from law enforcement. 21 The MEDIC is required to identify
                   potential fraud and abuse through external sources, such as tips, as well as
                   proactive methods, such as data analysis. 22
                   CMS is responsible for the oversight of sponsors and the MEDIC. CMS
                   conducts a number of different audits for sponsors, including onsite audits
                   of their compliance plans. 23 During these audits, CMS assesses the
                   effectiveness of sponsors’ fraud and abuse programs. CMS evaluates the
                   MEDIC’s performance annually.
                   Related Work
                   A recent OIG report found that 2,637 retail pharmacies had questionable
                   billing in 2009. 24 These pharmacies had extremely high billing for at least
                   one of the eight measures we developed. For example, many pharmacies
                   billed extremely high dollar amounts or numbers of prescriptions per
                   beneficiary or per prescriber, which could mean that a pharmacy is billing
                   for drugs that are not medically necessary or were never provided to the
                   beneficiary. Among other things, the report recommended that CMS
                   strengthen its monitoring of pharmacies, provide additional guidance to

                   20
                     CMS, Announcement of Calendar Year (CY) 2013 Medicare Advantage Capitation
                   Rates and Medicare Advantage and Part D Payment Policies and Final Call Letter,
                   April 2, 2012. Accessed at http://www.cms.gov/Medicare/Health-
                   Plans/HealthPlansGenInfo/Downloads/2013-Call-Letter.pdf on October 4, 2012. Also
                   see CMS, Supplemental Guidance Related to Improving Drug Utilization Review
                   Controls in Part D, August 31, 2012.
                   21
                      CMS, MEDIC Statement of Work, July 2009.
                   22
                      For more information on the responsibilities of the National Benefit Integrity MEDIC,
                   see OIG, MEDIC Benefit Integrity Activities in Medicare Parts C and D, OEI-03-11-
                   00310, January 2013.
                   23
                      For more information on CMS audits, see OIG, Audits of Medicare Prescription Drug
                   Plan Sponsors, OEI-03-09-00330, December 2011.
                   24
                      OIG, Retail Pharmacies With Questionable Part D Billing, OEI-02-09-00600,
                   May 2012.

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                               4
                   sponsors on monitoring pharmacy billing, and further strengthen its
                   compliance plan audits. CMS concurred with these recommendations.
                   Another recent OIG report found that Medicare Part D inappropriately
                   paid $25 million for Schedule II drugs billed as refills in 2009. 25 Sponsors
                   should not have paid for any of these drugs because Federal law prohibits
                   the refilling of Schedule II controlled substances without a new
                   prescription. 26 Also, three-quarters of Part D sponsors paid for Schedule II
                   drugs billed as refills, indicating that many sponsors do not have adequate
                   controls to prevent these refills. Among other things, the report
                   recommended that CMS issue guidance to sponsors to prevent billing of
                   Schedule II refills and to exclude Schedule II refills when calculating
                   payments to sponsors.
                   Another OIG report found that Medicare Part D paid $1.2 billion in 2007
                   for drugs with invalid prescriber identifiers (the identifiers had either
                   never been assigned or had been retired). 27 The report recommended that
                   CMS conduct periodic reviews to ensure the validity of prescriber
                   identifiers and require Part D plans to institute procedures to identify and
                   review records containing invalid prescriber identifiers.
                   An additional OIG report found barriers to the MEDIC’s benefit integrity
                   efforts. 28 These barriers included problems in the sharing of information
                   and recovering inappropriate payments. The report also found that only a
                   small percentage of the MEDIC’s investigations and case referrals resulted
                   from proactive data analysis. In the 1-year study period, the MEDIC
                   initiated just 209 Part D investigations from proactive methods, such as
                   data analysis.

                   METHODOLOGY
                   We based this study on an analysis of Prescription Drug Event (PDE)
                   records from 2009, which we collected to undertake this body of work.
                   Sponsors submit these records to CMS for each drug dispensed to
                   beneficiaries enrolled in their plans. Each record contains information
                   about the beneficiary, pharmacy, prescriber, and drug. We matched these



                   25
                      OIG, Inappropriate Part D Payments for Schedule II Drugs Billed as Refills,
                   OEI-02-09-00605, September 2012.
                   26
                      Federal law permits partial refills under certain circumstances. It is possible some of
                   these drugs may have been inaccurately billed as refills when they were partial fills.
                   27
                      OIG, Invalid Prescriber Identifiers on Medicare Part D Claims, OEI-03-09-00140,
                   June 2010.
                   28
                      OIG, MEDIC Benefit Integrity Activities in Medicare Parts C and D,
                   OEI-03-11-00310, January 2013.

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                     5
                   records to data from the National Plan and Provider Enumeration System
                   (NPPES) to obtain descriptive information about the prescribers.
                   Sponsors are required to certify the accuracy, completeness, and
                   truthfulness of their PDE data. 29 Beginning in January 2012, they are also
                   required to ensure that the prescriber identifiers on the PDE records are
                   active and valid, meaning that they are currently assigned to a health care
                   provider. 30
                   PDE Data
                   We obtained all PDE records for covered Part D drugs with dates of
                   service from January 1 to December 31, 2009. This amounted to
                   1,070,149,994 PDE records.
                   For each PDE record, we identified the identification number of the
                   prescriber, which was generally a National Provider Identifier (NPI). 31
                   NPIs are assigned to many different types of health care providers.
                   Having an NPI does not mean that an individual has the authority to
                   prescribe drugs. For records that used other types of prescriber
                   identification numbers, we used a crosswalk developed by OIG analysts to
                   identify the prescriber’s NPI. 32
                   We matched each NPI to the NPPES to determine which PDE records
                   were prescribed by individuals, as opposed to organizations (e.g., hospitals
                   or group practices). We focused our review on individual prescribers
                   because organizations may be associated with multiple prescribers. We
                   identified 1,102,275 individual prescribers who were associated with
                   1,026,983,870 PDE records. These records represent 96 percent of all
                   PDE records in 2009.
                   Using the National Drug Code (NDC) on the PDE record, we matched the
                   PDE records to data from First DataBank. First DataBank contains
                   information about each drug, such as the drug name and whether the drug




                   29
                      42 CFR § 423.505(k).
                   30
                      Sponsors must also confirm that any controlled substances are consistent with the
                   schedule of drugs that the provider is allowed to handle. CMS, Announcement of
                   Calendar Year (CY) 2012 Medicare Advantage Capitation Rates and Medicare
                   Advantage and Part D Payment Policies and Final Call Letter, April 4, 2011.
                   31
                      PDE records allow four types of prescriber identification numbers: NPIs, DEA
                   numbers, State license numbers, and Unique [Physician] Identification Numbers (UPIN).
                   32
                      To develop this crosswalk, we used information from the Services Tracking, Analysis,
                   and Reporting System (known as STARS), the DEA database, and the NPPES. We were able
                   to identify valid NPIs for 97 percent of the PDE records. The remaining 3 percent had
                   missing identifiers or were billed with identifiers that we could not link to a valid NPI.

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                6
                   is brand-name or generic. 33 It also indicates whether a drug is a controlled
                   substance and, if so, which schedule the drug is on (Schedule II or III). 34
                   Prescribing Measures
                   We used five measures to describe Part D prescribing patterns. We
                   developed these measures on the basis of the results of past OIG analyses
                   and fraud investigations of Part D billing, as well as input from CMS staff.
                   We calculated the five measures for each individual prescriber, then
                   calculated the national average for each measure.
                   The five measures are:
                        (1) average number of prescriptions per beneficiary, 35
                        (2) total number of pharmacies associated with each prescriber,
                        (3) percentage of prescriptions that were for Schedule II drugs,
                        (4) percentage of prescriptions that were for Schedule III drugs, and
                        (5) percentage of prescriptions that were for brand-name drugs.
                   We calculated the total number of beneficiaries that each prescriber
                   ordered drugs for by using the Health Insurance Claim Number (HICN) on
                   the PDE record. We calculated the total number of pharmacies by using
                   the NPI for each pharmacy or, if it was unavailable, the identification
                   number for the pharmacy on the PDE record. 36 For the purposes of this
                   report, we use the term “prescription” to mean one PDE record.
                   Analysis by Prescriber Specialty
                   To identify the specialty for each prescriber, we matched the NPIs to the
                   NPPES. The NPPES contains information reported by each prescriber,
                   such as his or her specialty, address, and professional credentials, such as




                   33
                      First DataBank determines whether a drug is brand-name or generic based on the
                   drug’s name.
                   34
                      A total of 0.002 percent of the PDE records had an NDC that did not match to First
                   DataBank. We did not include these records in the analysis on Schedule II, Schedule III,
                   or brand-name drugs.
                   35
                      This measure represents the average number of prescriptions one prescriber ordered per
                   beneficiary. It does not represent the average number of prescriptions that each
                   beneficiary received because a beneficiary can receive prescriptions from multiple
                   prescribers.
                   36
                      To identify the number of pharmacies, we used the same method as in an earlier report.
                   See OIG, Retail Pharmacies With Questionable Part D Billing (OEI-02-09-00600),
                   May 2012.

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                               7
                   M.D. or R.N. Providers report this information to CMS and must ensure
                   that it is updated and accurate. 37
                   We identified each prescriber’s specialty based on the primary taxonomy
                   code that he or she reported in the NPPES. The taxonomy code indicates
                   a provider’s specialty and subspecialty, if any. For example, it may
                   indicate that a prescriber is a family-medicine physician specializing in
                   geriatric medicine.
                   We then grouped the taxonomy codes for similar specialties. For
                   example, we grouped all of the nurse practitioners together and all of the
                   dentists together. We considered general-care physicians to be general
                   practitioners, family practitioners, and internal medicine practitioners with
                   no specialization or a specialization in adults or geriatrics. 38 We
                   calculated each group’s average for the five measures listed above. 39
                   Identification of General-Care Physicians With Questionable
                   Prescribing Patterns
                   To identify prescribers with questionable patterns, we focused our analysis
                   on general-care physicians in nonrural areas. We focused on general-care
                   physicians because they are the most common type of Part D prescriber
                   and they prescribed more than half of all Part D prescriptions in 2009. We
                   focused on physicians who were located in nonrural areas because those in
                   very rural areas may have different prescribing patterns due to their
                   location. For example, these physicians may order unusually high
                   numbers of drugs per beneficiary because there are fewer physicians or
                   specialists in their areas. We considered physicians who were not located
                   in a Core Base Statistical Area (CBSA)—a region around an urban center
                   that has at least 10,000 people—to be in very rural areas. 40 In total, we
                   based this analysis on 86,818 general-care physicians and
                   540,581,871 PDE records. 41


                   37
                      When applying for an NPI, the provider signs a certification that the information is
                   correct and that he or she agrees to provide notification of any changes within 30 days.
                   CMS, National Provider Identifier (NPI) Application/Update Form, November 2008.
                   Accessed at https://www.cms.gov/Medicare/CMS-Forms/CMS-
                   Forms/Downloads/CMS10114.pdf on June 5, 2012.
                   38
                      We reviewed each specialty’s prescribing patterns to ensure that they were similar to
                   the other specialties and that we could group them together.
                   39
                      For this analysis, we included the 22 specialty groups that each had more than
                   3 million PDE records.
                   40
                      U.S. Census Bureau, Metropolitan and Micropolitan Statistical Areas. Accessed at
                   http://www.census.gov/population/www/metroareas/aboutmetro.html on March 3, 2011.
                   41
                      For this analysis, we included general-care physicians who were associated with 100 or
                   more PDE records that amounted to $100,000 or more. For the analysis of Schedule II
                   and III drugs, we included prescribers associated with 100 or more PDE records for those
                   drugs.

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                               8
                   To identify the general-care physicians who were very extreme outliers
                   compared to their peers, we took several steps. We first used a standard
                   technique for identifying outliers, known as the Tukey method. 42 Using
                   this method, we identified 2,248 general-care physicians who were
                   outliers (i.e., above the 75th percentile plus 3 times the interquartile range)
                   on one or more of the five measures we reviewed. In analyzing these
                   physicians’ prescribing patterns further, we identified the prescribers who
                   were even more extreme outliers. These outliers corresponded to a
                   threshold of at least the 75th percentile plus 4.5 times the interquartile
                   range for each measure.
                   We considered general-care physicians who exceeded one or more of
                   these thresholds to have questionable prescribing patterns. Some of their
                   prescribing may have been appropriate. However, prescribing high
                   amounts on any of these measures may indicate that a physician is
                   prescribing drugs which are not medically necessary or that he or she has
                   an inappropriate incentive, such as a kickback, to order certain drugs. It
                   may also indicate that the prescriber’s identification number or
                   prescription pad has been sold or stolen. We calculated the total amount
                   Medicare paid for drugs prescribed by these general-care physicians. 43
                   We then determined the extent to which prescribers with questionable
                   prescribing patterns had certain characteristics in common. We identified
                   each prescriber’s CBSA to determine whether they were concentrated in
                   certain areas. We also determined which drugs were most commonly
                   ordered by prescribers with questionable patterns.
                   Lastly, we determined whether the general-care physicians with
                   questionable patterns were associated with any of the 2,637 retail
                   pharmacies with questionable billing that we identified in an earlier
                   report. 44 We considered a physician to be associated with a pharmacy if
                   the pharmacy billed at least 25 percent of the cost of all the drugs that the
                   physician prescribed in 2009.




                   42
                      See J.W. Tukey, Exploratory Data Analysis. Addison-Wesley, 1977. The Tukey
                   method traditionally sets the threshold at the 75th percentile plus 1.5 or 3 times the
                   interquartile range. The interquartile range is calculated by subtracting the value at the
                   25th percentile from the value at the 75th percentile.
                   43
                      We used three fields on the PDE records to calculate Part D payments: the ingredient
                   cost, dispensing fee, and sales tax. This includes the amount paid by sponsors, the
                   Government, and by, or on behalf of, beneficiaries.
                   44
                      OIG, Retail Pharmacies With Questionable Part D Billing, OEI-02-09-00600,
                   May 2012.

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                     9
                   Limitations
                   We designed this study to identify prescribers who warrant further
                   scrutiny. None of the measures we analyzed independently confirm that a
                   particular prescriber is engaging in fraudulent or abusive practices.
                   We did not independently verify the accuracy of the PDE records or the
                   data from the NPPES. In particular, we did not verify the information
                   about prescribers’ specialties that they reported in the NPPES.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                 10
                   FINDINGS
                   Over 1 million prescribers ordered drugs paid for by
                   Part D in 2009
                   A total of 1.1 million prescribers ordered Part D drugs for Medicare
                   beneficiaries in 2009. These prescribers included many specialties, such
                   as general-care physicians, dentists, and nurse practitioners. 45 These
                   individuals ordered over 1 billion prescriptions during the year. In total,
                   Medicare paid $70.7 billion for these prescriptions. 46 On average, these
                   1.1 million prescribers each ordered Part D prescriptions costing $64,102.
                   Prescribers typically did not order drugs for a very large number of
                   beneficiaries, nor did they order many drugs per beneficiary during the
                   year. On average, each prescriber ordered prescriptions for
                   80 beneficiaries and averaged 6 prescriptions per beneficiary.
                   Interestingly, more than half of the prescribers ordered fewer than 100 Part
                   D prescriptions each during the year. Further, on average, prescribers
                   ordered drugs that were dispensed at 32 pharmacies. Half the prescribers
                   ordered drugs that were dispensed at 17 or fewer pharmacies.
                   Two-thirds of prescribers ordered Schedule II or III drugs. Schedule II
                   drugs are controlled substances that have potential for abuse and may lead
                   to severe psychological or physical addiction. They include drugs such as
                   oxycodone and morphine. On average, 4 percent of the prescriptions from
                   each prescriber were for Schedule II drugs. Schedule III drugs also have
                   potential for abuse and include anabolic steroids, hydrocodone with
                   codeine, and barbiturates. On average, 7 percent of the prescriptions from
                   each prescriber were for Schedule III drugs.
                   On average, about a quarter of the prescriptions ordered by each prescriber
                   were for brand-name drugs. Interestingly, 16 percent of prescribers did
                   not order any brand-name drugs, while 10 percent of prescribers ordered
                   60 percent or more of their prescriptions as brand-name. Brand-name
                   drugs tend to be more expensive than generic drugs. See Table 1 for more
                   information on prescribing patterns.




                   45
                      For the purposes of this report, general-care physicians include general practitioners,
                   family practitioners, and internal medicine practitioners with no specialization or a
                   specialization in adults or geriatrics.
                   46
                      This includes the amount paid by sponsors, the Government, and by, or on behalf of,
                   beneficiaries.

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                     11
                   Table 1: Part D Prescribing Patterns for All Prescribers, 2009

                                                                                                 10th            50th         90th
                                                                  National Average
                                                                                           Percentile      Percentile   Percentile


                    Average Number of Prescriptions per
                                                                                      6              1             3           16
                    Beneficiary

                    Number of Pharmacies Associated
                                                                                    32               1            17           85
                    With Each Prescriber


                    Percentage of Schedule II Drugs                                4%              0%            0%          10%


                    Percentage of Schedule III Drugs                               7%              0%            1%          23%


                    Percentage of Brand-Name Drugs                                27%              0%           25%          60%

                   Note: For the purposes of this report, we considered a prescription to be one PDE record.
                   Source: OIG analysis of Part D data, 2012.




                   Prescribing patterns varied widely by specialty
                   General-care physicians were the most common type of prescriber and
                   ordered the majority of Part D prescriptions. General-care physicians
                   accounted for 20 percent of all prescribers in 2009 and ordered two-thirds
                   of all of Part D prescriptions in 2009. Dentists were the second most
                   common type of prescriber, but were responsible for just 1 percent of
                   Part D prescriptions overall. Nurse practitioners and physicians’ assistants
                   were also common prescribers; together they represented 11 percent of
                   prescribers and were responsible for a little less than 6 percent of the
                   Part D prescriptions. See Table 2 for the most common specialties. See
                   Appendix A for a more complete list.




Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                                    12
                  Table 2: Most Common Specialties of Part D Prescribers

                                                                          Percentage of All                       Percentage of All
                   Specialty
                                                                               Prescribers                           Prescriptions

                   General Care                                                           20%                                     65%

                   Dentistry                                                              14%                                     1%

                   Nurse Practitioners                                                     7%*                                    3%

                   Physician Assistants                                                     5%                                    2%

                   Emergency Medicine                                                       4%                                    1%

                   Psychiatry                                                               4%                                    3%

                   Obstetrics and Gynecology                                                3%                                    1%

                   Surgery                                                                  3%                                    <1%

                   Cardiology                                                               2%                                    5%
                  *The percentages of prescribers and prescriptions for nurse practitioners and physician assistants do not sum
                  to 11 percent and 6 percent, respectively, because of rounding.
                  Note: For the purposes of this report, we considered a prescription to be one PDE record.
                  Source: OIG analysis of Part D data, 2012.



                   General-care physicians ordered more prescriptions per beneficiary than
                   other specialties. Overall, general-care physicians ordered an average of
                   13 Part D prescriptions per beneficiary, which is more than double the
                   national average of 6. Other specialties averaged fewer. For example,
                   infectious disease specialists ordered    Table 3: Specialties With the
                   an average of 11 prescriptions per        Highest Average Number of
                   beneficiary and nephrologists ordered Prescriptions per Beneficiary
                   an average of 10. (See Table 3.) In       Specialty                   Average
                   contrast, emergency medicine
                   specialists ordered an average of two     General Care                     13
                   prescriptions per beneficiary. See        Infectious Disease               11
                   Appendix B for more information on
                                                             Nephrology                       10
                   prescribing patterns by specialty.
                                                                                   Note: For the purposes of this report, we
                    Specialties also differed in the           considered a prescription to be one PDE record.
                                                               Source: OIG analysis of Part D data, 2012.
                   number of pharmacies that filled each
                   prescriber’s orders. Cardiologists, endocrinologists, and rheumatologists
                   had the highest number of pharmacies that filled the drugs they ordered;
                   each had an average of more than 80 pharmacies per prescriber. An
                   average of 52 pharmacies filled the drugs ordered by each general-care
                   physician. In contrast, dentists and nurse practitioners had fewer
                   pharmacies that filled their prescriptions, averaging 12 and 23,
                   respectively.




Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                                        13
                   Furthermore, specialties varied in their prescribing of controlled
                   substances. A few specialties were more likely than others to order higher
                   percentages of Schedule II or Schedule III drugs. On average, 14 percent
                   of the prescriptions ordered by physical medicine and rehabilitation
                   specialists were for Schedule II drugs. Surgeons and anesthesiologists
                   were next, with 11 percent of their prescriptions being for Schedule II
                   drugs. (See Table 4.) General-care
                   physicians were less likely to order         Table 4: Specialties With the
                   Schedule II drugs. On average, 2             Highest Average Percentage of
                   percent of the prescriptions ordered by      Schedule II Drugs
                   general-care physicians were for             Specialty                Average
                   Schedule II drugs. Some specialties
                   rarely prescribed Schedule II drugs;         Physical Medicine and
                                                                                             14%
                   cardiologists and endocrinologists           Rehabilitation

                   averaged a little more than 0.3 percent      Surgery                      11%
                   each for their prescriptions.
                                                                              Anesthesiology               11%
                   The specialties most likely to prescribe     Note: For the purposes of this report, we
                   Schedule III drugs were surgeons,            considered a prescription to be one PDE record.
                                                                Source: OIG analysis of Part D data, 2012.
                   emergency medicine specialists, and
                   dentists. On average, more than 14 percent of the prescriptions ordered by
                   prescribers in each of these specialties were for Schedule III drugs. In
                   contrast, 3 percent of the prescriptions ordered by general-care physicians
                   were for Schedule III drugs. A few specialties, including cardiologists and
                   gastroenterologists, rarely prescribed Schedule III drugs.
                   Lastly, some specialties were much more likely than others to order
                   brand-name drugs. Ophthalmologists, pulmonologists, and
                   endocrinologists commonly ordered brand-name drugs. More than half
                   the prescriptions ordered by prescribers in these specialties were for
                   brand-name drugs, on average. In contrast, 28 percent of the prescriptions
                   ordered by general-care physicians were for brand-name drugs. Dentists
                   prescribed only an average of 9 percent brand-name drugs. These
                   differences may be due to the availability of generic equivalents for the
                   drugs commonly used by these specialties.




Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                  14
                     Over 700 general-care physicians had questionable
                     prescribing patterns
                     In total, 2,248 general-care physicians were outliers on one or more of the
                     five measures we reviewed. 47 In analyzing these physicians’ prescribing
                     patterns further, we identified 736 who were very extreme outliers; we
                     considered these physicians to have questionable prescribing patterns. Each
                     of these physicians prescribed extremely high amounts for at least one of
                     the five measures we developed. (See Table 5.) Medicare paid
                     $352 million for the Part D drugs that these physicians ordered. While
                     some of this prescribing may be appropriate, physicians with such
                     questionable prescribing patterns warrant further scrutiny.

                     These 736 physicians were located throughout the nation. Los Angeles and
                     New York had the greatest numbers, with 34 and 32 physicians,
                     respectively. Philadelphia (22), Tampa (19), and Detroit (15) had the next-
                     largest numbers.



    Table 5: General-Care Physicians Who Prescribed Extremely High Amounts by
    Measure, 2009

                                                                                                                             Number of
                                                                                                     Threshold for
                                                                                     National                              General-Care
                                                                                                        Extremely
                                                                                  Average for                                Physicians
                                                                                                    High Amounts
                                                                                    General-                                       That
                                                                                                      for General-
                                                                                        Care                                 Prescribed
                                                                                                             Care
                                                                                  Physicians                                  Extremely
                                                                                                       Physicians
                                                                                                                          High Amounts


      Average Number of Prescriptions per Beneficiary                            13                 71                   108


      Number of Pharmacies Associated With Each Prescriber                       52                 342                  35


      Percentage of Schedule II Drugs                                            2%                 14%                  343


      Percentage of Schedule III Drugs                                           3%                 14%                  174


      Percentage of Brand-Name Drugs                                             28%                68%                  116

         Total Number of General-Care Physicians                                                                                      736*
      *
        A number of prescribers exceeded multiple thresholds. As a result, the sum of prescribers exceeding the thresholds does not equal
      736.
      Note: For the purposes of this report, we considered a prescription to be one PDE record.
      Source: OIG analysis of Part D data, 2012.




                     47
                       Our review included 86,818 general-care physicians. To identify general-care
                     physicians who were outliers, we first used the Tukey method, described in footnote 42.

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                                           15
                           Examples of Questionable Prescribing Patterns

        •    Medicare paid a total of $9.7 million—151 times more than the average—
             for one California physician’s prescriptions. Most of this physician’s
             prescriptions were filled by just two independent pharmacies, both of which
             OIG identified as having questionable billing.

        •    Seventy-eight percent of the prescriptions ordered by one Florida physician
             were for Schedule II drugs. For one beneficiary, this physician prescribed
             large quantities of four Schedule II drugs— a 605-day supply of morphine
             sulfate, a 524-day supply of oxycodone HCl, a 460-day supply of fentanyl,
             and a 347-day supply of hydromophone HCl.

        •    Fifty-seven percent of one Tennessee physician’s prescriptions were for
             Schedule II or III drugs. This physician prescribed an average of 8
             Schedule II prescriptions for each of his 427 beneficiaries, who filled their
             prescriptions at 368 different pharmacies.



                   One hundred eight general-care physicians prescribed an
                   extremely high number of prescriptions per beneficiary
                   Although some of this prescribing may be legitimate, ordering a high
                   average number of prescriptions per beneficiary could mean that a
                   physician is prescribing drugs that are not medically necessary.
                   As shown in Table 5, 108 general-care physicians prescribed an extremely
                   high number of prescriptions per beneficiary. These physicians each
                   ordered an average of 71 or more prescriptions per beneficiary, which was
                   more than 5 times general-care physicians’ national average of 13.
                   Further, 24 of these physicians ordered more than 400 prescriptions for 1
                   or more beneficiaries. In one extreme case, an Ohio physician ordered
                   more than 400 drugs each for 13 of his 665 beneficiaries. In total, this
                   physician ordered 50,430 drugs that were dispensed by 100 pharmacies in
                   18 States. This raises questions about whether these prescriptions were
                   legitimate. In another example, a Texas physician ordered more than
                   400 prescriptions each for 16 beneficiaries. He prescribed 700 or more
                   drugs for 3 of these beneficiaries in 2009.




Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                  16
                   Thirty-five general-care physicians had prescriptions filled by
                   an extremely high number of pharmacies
                   This measure raises questions about whether these prescriptions were
                   legitimate or necessary. For example, it may indicate that the physician’s
                   identification number or prescription pad was stolen or sold and then used
                   to write illegal prescriptions and submit false Medicare claims.
                   Thirty-five general-care physicians each had prescriptions filled by at least
                   342 pharmacies. This was over six times the national average of 52 per
                   general-care physician. In one case, prescriptions from one general-care
                   physician in Illinois were filled by 872 pharmacies located in 47 States
                   and Guam. Medicare paid $783,686 for these drugs.
                   In another case, prescriptions from a general-care physician in New Jersey
                   were filled by 608 pharmacies located in 41 States and Puerto Rico.
                   Medicare paid $380,847 for these drugs.
                   Overall, 483 general-care physicians ordered an extremely
                   high percentage of Schedule II or Schedule III drugs, which
                   have potential for addiction and abuse
                   Schedule II and III drugs have a high risk for abuse. Although some of
                   this prescribing may be appropriate, prescribing a high percentage of these
                   drugs may indicate that a physician is ordering medically unnecessary
                   drugs, which may be used inappropriately or diverted and resold. Misuse
                   of these drugs has serious human and financial costs.
                   A total of 483 general-care physicians ordered an extremely high
                   percentage of Schedule II or III drugs. Specifically, 343 general-care
                   physicians ordered a high percentage of Schedule II drugs: at least
                   14 percent of the prescriptions ordered by each of these physicians were
                   for Schedule II drugs. This was seven times the national average for
                   general-care physicians. The most common Schedule II drugs ordered by
                   these physicians were oxycodone HCl, morphine sulfate, and methadone
                   HCl.
                   In one example, about 80 percent of the prescriptions ordered by one Ohio
                   physician were for Schedule II drugs. Also troubling is that this physician
                   had 106 Part D beneficiaries and 98 of them received oxycodone HCl.
                   Another California physician ordered 115 Schedule II drugs for
                   1 beneficiary in 2009. Medicare paid $425,711 for these drugs, which
                   were dispensed by 11 pharmacies. In another case, 68 percent of a
                   Wisconsin physician’s prescriptions were for Schedule II drugs. On
                   average, he ordered about 14 Schedule II prescriptions for each of his
                   300 beneficiaries.


Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                   17
                   In addition, 174 general-care physicians ordered a high percentage of
                   Schedule III drugs. Fourteen percent or more of the prescriptions ordered
                   by each of these physicians were for Schedule III drugs. This is five times
                   general-care physicians’ national average. The most common Schedule III
                   drugs prescribed by these physicians were hydrocodone-acetaminophen,
                   acetaminophen-codeine, and Suboxone. Interestingly, for five prescribers
                   35 percent or more of the drugs each ordered were Schedule III. Four of
                   these prescribers were located in Kentucky and the fifth was in Tennessee.
                   One hundred sixteen general-care physicians prescribed an
                   extremely high percentage of brand-name drugs
                   While some of this prescribing may have been appropriate, ordering a high
                   percentage of brand-name drugs may indicate that a physician has
                   inappropriate incentives to order certain drugs because brand-name drugs
                   are more expensive than generic.
                   A total of 116 general-care physicians prescribed an extremely high
                   percentage of brand-name drugs. At least 68 percent of the prescriptions
                   ordered by each of these physicians were for brand-name drugs, compared
                   to general-care physicians’ national average of 28 percent. In one case, a
                   California physician ordered 82 percent of his prescriptions for
                   brand-name drugs. Medicare paid a total of $9.7 million for his
                   prescriptions in 2009—151 times more than the average amount. He also
                   ordered an unusually large number of prescriptions for Lovaza, which is a
                   prescription Omega-3-acid.
                   Further, 15 percent of these general-care physicians were
                   associated with retail pharmacies with questionable billing
                   A total of 110 of the 736 general-care physicians were associated with one
                   or more of the retail pharmacies we previously identified as having
                   questionable billing. 48 In each case, the retail pharmacy billed for at least
                   25 percent of the total cost of the Part D drugs that the physician
                   prescribed in 2009.
                   Most of the physicians were associated with one retail pharmacy with
                   questionable billing; however, five physicians were associated with two
                   pharmacies each. In one case, 90 percent of one physician’s prescriptions
                   were filled by two pharmacies with questionable billing. These
                   prescriptions amounted to $3.1 million.




                   48
                    OIG, Retail Pharmacies With Questionable Part D Billing, OEI-02-09-00600,
                   May 2012.

Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                     18
                   CONCLUSION AND RECOMMENDATIONS
                   We found hundreds of general-care physicians nationwide with
                   questionable prescribing patterns. While there may be legitimate reasons
                   for some of this prescribing, all of these physicians warrant further
                   scrutiny. We found that many prescribed extremely high proportions of
                   Schedule II or III drugs. These drugs have high risk for abuse and may be
                   diverted and sold for profit. Many other physicians prescribed high
                   numbers of drugs per beneficiary or high proportions of brand-name
                   drugs, which may indicate that the prescriptions are medically
                   unnecessary. Further still, some prescribers had their prescriptions filled
                   at extremely high numbers of pharmacies, again raising concern about the
                   legitimacy of the prescriptions.
                   These findings show the need for increased oversight of Part D. OIG is
                   committed to continuing its investigations and audits of Part D and to
                   following up on prescribers, as appropriate. CMS must take steps to
                   effectively identify and prevent prescriber related fraud, waste, and abuse
                   in Part D.
                   We recommend that CMS:
                   Instruct the MEDIC to Expand Its Analysis of Prescribers
                   CMS should work with the MEDIC to ensure that it effectively and
                   systematically monitors prescribers to identify those with questionable
                   patterns. As this study shows, prescribing patterns vary significantly by
                   specialty; therefore, taking specialty into account is an important step in
                   identifying prescribers with questionable patterns. We recommend that
                   the MEDIC expand the analysis in this report and review other specialties
                   for questionable prescribing patterns. The MEDIC should use the
                   measures in this report, as well as others it deems appropriate.
                   Provide Sponsors With Additional Guidance on Monitoring
                   Prescribing Patterns
                   CMS should provide additional guidance to sponsors on how to effectively
                   monitor prescribing patterns. CMS should emphasize the importance of
                   using data analysis to identify prescribers with questionable patterns.
                   Specifically, CMS should recommend that sponsors compare physicians
                   with similar specialties when conducting such analysis.
                   In addition, CMS recently issued guidance to sponsors on how to improve
                   their Drug Utilization Reviews to prevent overutilization of certain Part D
                   drugs. This guidance suggests that sponsors use PDE data to identify and
                   follow up on beneficiaries who are receiving extremely high dosages of
                   opioids. CMS should provide further guidance to sponsors suggesting that
                   they identify prescribers who are associated with a high number of these


Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                  19
                   beneficiaries and refer these prescribers to the MEDIC or law enforcement if
                   fraud is suspected.
                   Provide Education and Training for Prescribers
                   CMS should provide education and training to prescribers. Although
                   CMS does not have a direct contractual relationship with prescribers under
                   Part D, it is in the best position to assess and educate prescribers about
                   prescribing patterns. CMS should provide prescribers with reports
                   comparing their prescribing patterns to their peers’. Similar to the
                   Comparable Billing Reports issued for other services, such as Part B, these
                   reports would provide prescribers with important educational information
                   and insight about their prescribing patterns.
                   CMS should also conduct a communication and educational campaign for
                   prescribers about the overutilization of prescription drugs. Specifically,
                   the campaign should raise awareness about prescription drug abuse and to
                   remind prescribers that Part D only covers drugs that are used for
                   medically indicated purposes. It should also educate prescribers about
                   what constitutes Medicare fraud and the potential consequences of
                   committing it. These efforts will help to ensure that physicians prescribe
                   drugs only for lawful purposes.
                   Follow Up on Prescribers With Questionable Prescribing
                   Patterns
                   In a separate memorandum, we will refer the general-care physicians with
                   questionable prescribing patterns to CMS for appropriate action.




Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                   20
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE

                   In its comments on the draft report, CMS concurred with all four of the
                   recommendations. CMS concurred with our first recommendation and
                   stated that it will continue to work with the MEDIC to expand its analysis
                   of prescribers and build on the analysis of prescribing patterns provided by
                   OIG in this report. Additionally, CMS has increased its monitoring of
                   prescribers through the Part D Recovery Audit Contractor with which
                   CMS has contracted to identify and recover improper payments in the Part
                   D program.
                   CMS concurred with our second recommendation and stated that it has a
                   responsibility for monitoring prescribing patterns beyond the
                   responsibility of sponsors, because it has all prescribing data for Part D
                   and sponsors have prescribing data for only their enrollees. To help
                   sponsors overcome limitations in the plan data, CMS will provide general
                   guidance “red flags” to sponsors concerning aberrant and abusive
                   prescribing patterns it detects that may not be apparent to individual
                   sponsors. It also stated that, “as a part of its opioid overutilization policy,
                   CMS has already provided the guidance to Part D sponsors that this
                   recommendation suggests on the critical area of opioid prescription drug
                   abuse.” In addition, the MEDIC will conduct a presentation on drug
                   overutilization at the next quarterly fraud work group meeting.
                   CMS concurred with our third recommendation and stated that it has
                   already engaged in communication and education for prescribers about the
                   overutilization of prescription drugs in the annual Medicare “Dear Doctor”
                   letter (i.e., the Announcement About Medicare Participation for Calendar
                   Year 2013). CMS also stated that it engaged in an additional initiative to
                   provide training and education through the Medicare Learning Network.
                   CMS concurred with our fourth recommendation and stated that it is
                   committed to following up, as necessary, to determine whether the
                   individual physician prescribing patterns are indications of likely fraud or
                   abuse.
                   We support CMS’s efforts to address these issues. For the full text of
                   CMS’s comments, see Appendix C.




Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                      21
APPENDIX A

Specialties of Part D Prescribers

                                                                                                                   Percentage of All
 Specialty                                                       Percentage of All Part D Prescribers
                                                                                                                Part D Prescriptions

 General Care                                                                                         19.8%                   65.5%

 Dentistry                                                                                            13.7%                    0.6%

 Nurse Practitioners                                                                                    6.5%                   3.4%

 Physician Assistants                                                                                   4.9%                   2.1%

 Emergency Medicine                                                                                     3.7%                   0.9%

 Psychiatry                                                                                             3.6%                   3.0%

 Obstetrics and Gynecology                                                                              3.4%                   0.5%

 Surgery                                                                                                2.7%                   0.4%

 Cardiology                                                                                             2.1%                   5.2%

 Anesthesiology                                                                                         1.6%                   0.3%

 Ophthalmology                                                                                          1.6%                   1.3%

 Neurology                                                                                              1.2%                   1.1%

 Gastroenterology                                                                                       1.1%                   0.8%

 Hematology and Oncology                                                                                1.0%                   0.7%

 Dermatology                                                                                            1.0%                   0.4%

 Urology                                                                                                0.9%                   0.8%

 Pulmonary                                                                                              0.8%                   1.0%

 Nephrology                                                                                             0.7%                   1.3%

 Physical Medicine and Rehabilitation                                                                   0.7%                   0.4%

 Endocrinology                                                                                          0.5%                   1.0%

 Infectious Disease                                                                                     0.5%                   0.4%

 Rheumatology                                                                                           0.4%                   0.8%

 Other                                                                                                27.8%                    8.0%
Note: For the purposes of this report, we considered a prescription to be one Prescription Drug Event record.
Source: Office of Inspector General analysis of Part D data, 2012.




         Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                              22
APPENDIX B

Part D Prescribing Patterns by Specialty
                                                                  Average
                                                                                         Average              Average          Average
                                  Average Number                Number of
                                                                                    Percentage of        Percentage of    Percentage of
  Specialty                        of Prescriptions            Pharmacies
                                                                                      Schedule II          Schedule III    Brand-Name
                                    per Beneficiary        Associated With
                                                                                           Drugs                Drugs            Drugs
                                                           Each Prescriber

  General Care                                     13                       52                 2.0%               2.7%           28.3%

  Infectious Disease                               11                       34                 1.6%               1.9%           42.5%

  Cardiology                                       10                       85                 0.3%               0.5%           29.4%

  Endocrinology                                    10                       82                 0.3%               1.4%           51.4%

  Nephrology                                       10                       69                 0.9%               1.5%           29.4%

  Psychiatry                                       10                       30                 2.5%               1.0%           34.6%

  Rheumatology                                       9                      96                 2.3%               4.4%           20.5%

  Pulmonary                                          8                      61                 0.9%               1.0%           56.7%

  Neurology                                          7                      56                 2.3%               1.9%           36.7%
  Hematology and
                                                     6                      51                 8.5%               4.0%           34.2%
  Oncology
  Physical Medicine and
                                                     6                      41               14.2%              10.6%            23.8%
  Rehabilitation
  Nurse Practitioners                                6                      23                 3.8%               3.5%           29.6%

  Anesthesiology                                     5                      15               10.7%                7.9%           26.4%

  Gastroenterology                                   4                      66                 0.7%               0.9%           39.1%
  Obstetrics and
                                                     4                      23                 2.5%               3.2%           43.5%
  Gynecology
  Ophthalmology                                      4                      72                 0.5%               1.3%           59.4%

  Urology                                            4                      74                 1.9%               4.3%           41.7%

  Physician Assistants                               4                      24                 5.6%               8.7%           23.5%

  Dermatology                                        3                      60                 0.4%               1.4%           19.7%

  Surgery                                            3                      23               10.9%              18.8%            21.7%

  Emergency Medicine                                 2                      32                 7.8%             14.8%            15.8%

  Dentistry                                          2                      12                 1.4%             14.2%             8.7%
Note: For the purposes of this report, we considered a prescription to be one Prescription Drug Event record.
Source: Office of Inspector General analysis of Part D data, 2012.




        Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                                   23
APPENDIXC

Agency Comments



                                                                                           Centers for Medicare & Medicaid Services


                                                                                           Administrator
                                                                                           Washington, DC 2020 t




                                 MAY - 6 2013
                DATE :

                TO:           Daniel R. Levinson
                              Inspector General
                                                 /S/
                FROM:         Matilyn ~enner
                              Actirrg Administrator

                SUBJECT:      Office oflnspector General (OIG) Draft Report: "Prescribers with Questionable
                              Patterns in Medicare Part D" (OEI-02-09-00603)


                The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                comment on the above-subject OIG draft report. The purpose of this report is to describe
                Medicare Part D prescribing patterns, to describe the extent to which Part D prescribing patterns
                differ by prescribers' specialties, and to identifY general-care physicians with questionable
                Part D prescribing patterns in 2009.

                Prescription drug abuse is a serious and growing problem. CMS is committed to preventing such
                abuse, particularly in the area of prescriber fraud. CMS relies on sponsors to help safeguard
                Part D from fraud and abuse. These sponsors are required to have compliance plans in place that
                enable them to detect, prevent, and correct fraud, waste, and abuse. Additionally, CMS
                recommends that the sponsors use data analysis as part of their compliance plans. CMS also
                contracts with a Medicare Drug Integrity Contractor (MEDIC) as part of its continuing effort to
                detect and prevent fraud, waste, and abuse. This contractor's responsibilities include identifYing
                and investigating potential Part D fraud and abuse, referring such cases to OIG, and fulfilling
                requests for information from law enforcement.

                We appreciate OIG's efforts in working with CMS to increase oversight of the Medicare Part D
                program in an effort to safeguard against prescription drug abuse. CMS concurs with all of
                OIG's recommendations to improve oversight of Part D and to expand the use of data analysis in
                these oversight efforts. Our response to each of the OIG recommendations follows.

                 OIG Recommendation

                 The OIG recommends that CMS should instruct the MEDIC to expand its analysis of prescribers.




   Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                                                        24
Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)   25
Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)   26
Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)   27
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Jodi Nudelman, Regional
                   Inspector General for Evaluation and Inspections in the New York regional
                   office, and Nancy Harrison and Meridith Seife, Deputy Regional
                   Inspectors General.
                   Miriam Anderson served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff from the New York regional office who
                   conducted the study include Jenell Clarke and Jason Kwong. Central
                   office staff who provided support include Eddie Baker, Jr., Kevin Farber,
                   Meghan Kearns, Christine Moritz, and Debra Roush.




Prescribers With Questionable Patterns in Medicare Part D (OEI-02-09-00603)                28
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
